BRIAN E. FROSH
Attorney General

ELIZABETH F. HARRIS
Chief Deputy Attorney General
CAROLYN QUATTROCKI
Deputy Attorney General

STATE OF MARYLAND

OFFICE OF THE ATTORNEY GENERAL
FACSIMILE NO.

WRITER’S DIRECT DIAL NO.

(410) 576-6475

(410) 576-6422

March 12, 2020
Scott S. Harris, Clerk
Supreme Court for the United States
1 First Street, N.E.
Washington, DC 20543
RE:

Raminder Kaur v. Maryland, No. 19-1045
Request for Extension

Dear Mr. Harris:
The State of Maryland, by and through undersigned counsel, pursuant to U.S. Sup.
Ct. R. 30.4, respectfully requests an extension of time within which to file the brief in
opposition to petition for writ of certiorari in the above-captioned case through and
including May 13, 2020.
Raminder Kaur’s petition for writ of certiorari was docketed in this Court on January
15, 2020, and the State waived its right to respond on February 25, 2020. On March 12,
2020 this Court requested a response from the State to be filed by April 13, 2020.
An extension of this deadline is necessary based on assigned counsel’s current
workload. Between the date this Court requested a response and the current deadline for
that response, assigned counsel is filing seven briefs in Maryland’s intermediate appellate
court. For this reason, undersigned counsel respectfully requests a 30-day extension of time
in which to file the brief in opposition to the petition for writ of certiorari in Raminder Kaur
v. Maryland, No. 19-1045, through and including Wednesday, May 13, 2020.

200 Saint Paul Place ❖ Baltimore, Maryland, 21202-2021
Main Office (410) 576-6300 ❖ Main Office Toll Free (888) 743-0023
Consumer Complaints and Inquiries (410) 528-8662 ❖ Health Advocacy Unit/Billing Complaints (410) 528-1840
Health Advocacy Unit Toll Free (877) 261-8807 ❖ Homebuilders Division Toll Free (877) 259-4525 ❖ Telephone for Deaf (410) 576-6372
www.marylandattorneygeneral.gov

March 12, 2020
Scott S. Harris, Clerk
Page 2

Respectfully submitted,
/s/
Carrie J. Williams
Assistant Attorney General
Principal Counsel for Criminal Policy
Criminal Appeals Division
CC:

Samuel Bryant Davidoff
Williams & Connolly, LLP
725 Twelfth Street, NW
Washington, DC 20005

